No.

Supreme Court of tije QUntteb States;
Donald Dallas,
Petitioner,
v.
Warden,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

MOTION TO PROCEED INFORMA PAUPERIS

CHRISTINE A. FREEMAN
Executive Director
AT JASON R. DULAC
Counsel ofRecord
Federal Defenders
For The Middle District of Alabama
817 S. Court Street
Montgomery, Alabama 36104
(334) 834-2099
Allvson dulac@fd.org

February 26, 2021

2
Mr. Dallas asks leave to file his Petition for a Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis pursuant to Rule 39. The
Federal Defenders for the Middle District of Alabama were appointed to represent
Mr. Dallas pursuant to 18 U.S.C. ยง 3006A, and Mr. Dallas was permitted to appeal
to the Eleventh Circuit without prepayment of fees pursuant to 18 U.S.C. ยง
3006A(d)(7).

Respectfully submitted,
Is/ Allvson R. duLac
ALLYSON R. DULAC
Counsel ofRecord
Federal Defenders
For The Middle District of Alabama
817 S. Court Street
Montgomery, Alabama 36104
(334) 834-2099
Allvson dulac@fd.org

Executed on February 26, 2021

